No. 20-1258
IN THE

Supreme Court of the United States
––––––

ONO PHARMACEUTICAL CO., LTD.,
TASUKU HONJO, E.R. SQUIBB & SONS, L.L.C.,
AND BRISTOL-MYERS SQUIBB COMPANY,
Petitioners,
v.
DANA-FARBER CANCER INSTITUTE, INC.,
Respondent.
––––––
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
––––––
BRIEF IN OPPOSITION
––––––

April 20, 2021

DONALD R. WARE
Counsel of Record
BARBARA A. FIACCO
SARAH S. BURG
MICHAEL B. HOVEN
FOLEY HOAG LLP
155 Seaport Boulevard
Boston, MA 02210
617-832-1000
dware@foleyhoag.com

i
QUESTION PRESENTED
Whether the court of appeals erred in
affirming
the
district
court’s
fact-bound
determination that two omitted inventors made
significant contributions to conception of the claimed
inventions over the course of a cancer research
collaboration spanning more than twelve months.

ii
CORPORATE DISCLOSURE STATEMENT
Respondent Dana-Farber Cancer Institute,
Inc. is a Massachusetts non-profit corporation. It has
no parent corporation and no capital stock.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED ......................................... i
CORPORATE DISCLOSURE STATEMENT .......... ii
TABLE OF AUTHORITIES ...................................... v
INTRODUCTION ...................................................... 1
STATEMENT OF THE CASE ................................... 3
A.

Overview ............................................... 3

B.

Factual Background ............................. 5

C.

The District Court Proceeding ........... 12

D.

The Federal Circuit Appeal ................ 15

E.

BMS’s Petition for Rehearing En
Banc..................................................... 16

REASONS FOR DENYING THE PETITION......... 17
A.

The Federal Circuit’s Decision Did Not
Deviate from Precedent or Create a
“Bright-Line” Rule Precluding a
District Court’s Consideration of
Relevant Inventorship Evidence ........ 17
1.

The Federal Circuit’s Decision
Applied Settled Law................. 18

2.

The Petition Mischaracterizes
the Federal Circuit’s Opinion .. 22

iv
B.

The Decision Does Not Conflict with
this Court’s Precedent ........................ 24

C.

The Decision Does Not Conflict with
Federal Circuit Precedent, Fourth
Circuit Precedent, or “Black Letter
Patent Law” ........................................ 26

D.

The Federal Circuit Determined that
Drs. Freeman and Wood Made
Significant Contributions to Conception
of the Claimed Inventions that Were
Not Disclosed in Prior Art .................. 30

E.

The Decision Will Not Trigger a “Flood
of Litigation,” “Chill Collaboration,” or
“Deliver Windfalls” ............................. 31

CONCLUSION ......................................................... 34

v
TABLE OF AUTHORITIES
Page
Cases
Astellas Institute for Regenerative
Medicine v. ImStem Biotechnology,
Inc.,
2021 U.S. Dist. LEXIS 21900
(D. Mass. Feb. 5, 2021) ........................................33
In re Bilski,
545 F.3d 943 (Fed. Cir. 2008) ..............................26
Bilski v. Kappos,
561 U.S. 593 (2010)..............................................26
Board of Education ex rel. Board of
Trustees of Florida State University
v. American Bioscience, Inc.,
2001 U.S. Dist. LEXIS 19480
(N.D. Fla. Oct. 31, 2001) ......................................29
Board of Education ex rel. Board of
Trustees of Florida State University
v. American Bioscience, Inc.,
333 F.3d 1330 (Fed. Cir. 2003) ......................29, 30
CardiAQ Valve Technologies, Inc. v.
Neovasc Inc.,
708 F. App’x 654 (Fed. Cir. 2017)...... 21, 22, 23, 27
CODA Development s.r.o. v. Goodyear
Tire & Rubber Co.,
916 F.3d 1350 (Fed. Cir. 2019) ............................20
Eli Lilly & Co. v. Aradigm Corp.,
376 F.3d 1352 (Fed. Cir. 2004) ......................28, 32

vi
TABLE OF AUTHORITIES - Continued
Page
Cases
Ethicon, Inc. v. United States Surgical
Corp.,
135 F.3d 1456 (Fed. Cir. 1998) ............................20
Fina Oil & Chemical Co. v. Ewen,
123 F.3d 1466 (Fed. Cir. 1997) ......................19, 20
Garrett Corp. v. United States,
422 F.2d 874 (Ct. Cl. 1970) ..................................28
Hess v. Advanced Cardiovascular
Systems, Inc.,
106 F.3d 976 (Fed. Cir. 1997) ........................21, 22
KSR International Co. v. Teleflex Inc.,
550 U.S. 398 (2007)..............................................26
Levin v. Septodont, Inc.,
34 F. App’x 65 (4th Cir. 2002) .......................27, 28
Maatuk v. Emerson Electric, Inc.,
2019 U.S. Dist. LEXIS 17403
(N.D. Ohio Feb. 4 2019) .......................................28
Maatuk v. Emerson Electric, Inc.,
781 F. App’x 1002 (Fed. Cir. 2019)
(per curiam)..........................................................28
Nartron Corp. v. Schukra U.S.A., Inc.,
558 F.3d 1352 (Fed. Cir. 2009) ............................28
O’Reilly v. Morse,
56 U.S. 62 (15 How.) (1853) .................................25

vii
TABLE OF AUTHORITIES - Continued
Page
Cases
Pannu v. Iolab Corp.,
155 F.3d 1344 (Fed. Cir. 1998) .................... passim
Plate, LLC v. Elite Tactical Systems,
LLC,
2020 U.S. Dist. LEXIS 159083
(E.D. Tenn. Sept. 1, 2020) ...................................33
Vanderbilt University v. ICOS Corp.,
601 F.3d 1297 (Fed. Cir. 2010) ......................20, 29
Foreign Cases
Merck Sharp & Dohme Ltd. v. Ono
Pharmaceutical Co. Ltd.,
[2015] EWHC 2973 (Pat) .....................................31
Statutes
35 U.S.C. § 102(e) ..................................................9, 21
35 U.S.C. § 116(a)......................................................20
Other Authorities
130 Cong. Rec. 28,069-71 (1984)...............................20

1
INTRODUCTION
The Federal Circuit unanimously affirmed the
district court’s joint inventorship decision, holding
that “[u]ltimately, the decision in this appeal rests on
the extensive factual determinations made by the
district court relating to the work performed together
by Drs. Wood and Freeman, and Dr. Honjo.” App.
17a. The district court’s findings tell the story of a
history-making collaboration, by which scientists
from Massachusetts and Japan combined their
resources and shared their ideas and experimental
data to conceive a groundbreaking cancer treatment
that has profoundly improved the lives of cancer
patients everywhere. The district court’s 111-page
findings reflect the trial judge’s mastery of the
science, her meticulous review of the “flood of
corroborating evidence,” and her evaluation of the
credibility of witnesses. App. 73a. In affirming, the
Federal Circuit applied settled law, relying on the
same decades-old precedents that BMS cites as the
correct standard for joint inventorship.
BMS’s petition claims that the district court
and the Federal Circuit erred by giving insufficient
weight to the fact that some of Dr. Freeman’s and Dr.
Wood’s contributions had been published art as of the
date Dr. Honjo filed his patent application. But there
is no rule that a contribution is insignificant to
conception simply because it is published after the
contribution was made but before the invention is
complete. In the Federal Circuit, BMS urged that the
court adopt a categorical rule of disqualification in
these circumstances, but the Federal Circuit
correctly rejected its argument. In doing so, the court
did not adopt any “bright-line” rule that publication
before conception necessarily was irrelevant to

2
inventorship. It simply held that “publication of a
portion of a complex invention does not necessarily
defeat joint inventorship of that invention, and it does
not here.” App. 14a (emphasis added). BMS fails to
acknowledge, let alone challenge, this articulation of
the correct legal rule or its fact-bound application
here.
To the extent BMS challenges the inventorship
test applied by the Federal Circuit, it conflates two
distinct concepts in patent law, inventorship and
patentability. For inventorship, ideas may be found
to have contributed significantly to conception if they
were not publicly known at the time they were shared
with a collaborator. If they later become publicly
available before the filing of the patent application,
that may impair patentability, because patentability
is assessed in light of all prior art existing at the time
of the filing. If the patent issues nonetheless, the
question remains as to who should be credited as
having contributed to the conception of the claimed
invention.
Dr. Freeman’s discoveries, experimental data,
and insights, shared openly and in good faith with Dr.
Honjo over an extended period of collaboration, paved
the way not only to conception of the patented
inventions but also to Dr. Honjo’s 2018 Nobel Prize.
BMS’s petition belittles Dr. Freeman’s contributions,
but Dr. Honjo knows better, concluding his Nobel
lecture by crediting Dr. Freeman as one of his “major
collaborators” on “cancer immunotherapy by PD-1
blockade,” the very subject matter of the patents at
issue here.
The petition should be denied.

3
STATEMENT OF THE CASE
A.

Overview

The petition acknowledges that
“[i]f
collaborators contribute significantly to an inventive
concept, they deserve to be co-inventors of any
resulting patent.” Pet. 23. This is the question of fact
the parties tried to the district court. In the course of
a nine-day trial, the court (Saris, J.) heard live
testimony from eight witnesses, including Dr.
Freeman, Dr. Wood, and Dr. Honjo, and evaluated
their credibility. It also considered deposition
testimony from seven witnesses, contemporaneous
correspondence,
collaboration
agreements,
experimental data, meeting presentations and
notes, and drafts of co-authored scientific papers.
The court made detailed findings of fact based on
this “flood of corroborating evidence.” App. 73a.1
BMS does not challenge the district court’s
finding that the six patents-in suit are “all premised
on blocking the inhibitory interaction of the PD-1/PDL1 pathway to treat tumors that express PD-L1 or
PD-L2.” App. 23a. The evidence showed that Dr.
Honjo, though he had discovered the PD-1 receptor in
1992, tried and failed to identify the molecule to
which it binds (its “ligand”), only learning the
identity of the ligand and its biological function in
1999 from Drs. Freeman and Wood. The district court
found that Dr. Freeman and Dr. Wood together
discovered PD-L1, characterized the PD-1/PD-L1
In its appendix to its petition, BMS omitted the
district court’s helpful Table of Contents. A complete
copy of the decision is available at 379 F. Supp. 53 (D.
Mass. 2019).
1

4
pathway as inhibitory, and discovered “that
antibodies block the inhibitory effect of the pathway
and stimulate the immune system.” App. 94a.
The district court also found that Dr. Freeman
made the critical discovery that PD-L1 in humans is
expressed not only on normal cells—which use the
PD-1/PD-L1 pathway to inhibit an autoimmune
response —but also is expressed on a wide variety of
tumor cells. Based on this, Dr. Freeman hypothesized
that tumors could be using the pathway to inhibit the
antitumor immune response.
Blocking
the
interaction between PD-1 and PD-L1, he reasoned,
could treat cancer by preventing the inhibitory signal
and thereby enhancing the immune response. The
district court determined that Dr. Freeman’s
discovery of PD-L1 expression on tumor cells was a
“significant contribution”: indeed, the court found
that the mouse tumor experiments Dr. Honjo’s lab in
the latter half of 2000 “only triggered conception
because Dr. Honjo knew from Dr. Freeman’s work
that, like the transfected [engineered] tumors in
[those] experiments, human tumors express PD-L1.”
App. 95a-96a; App. 88a-90a.
Dr. Freeman made additional contributions
the district court found to be significant. Later in
1999, Dr. Freeman discovered a second PD-1 ligand,
PD-L2, and shared its discovery with Dr. Honjo. App.
49a. Together, Drs. Freeman and Wood “generated
the full-length sequence for the [PD-L2] molecule,
showed that it binds to PD-1 and inhibits the immune
response, and found that it is expressed on certain
mouse tumor cells.” App. 91a. The significance of
these contributions is underscored by the district
court’s finding that “[e]verything [Dr. Honjo] knew

5
about PD-L2 came from Dr. Freeman and Dr. Wood.”
Id.
Drs. Freeman and Wood shared their many
discoveries and ideas with Dr. Honjo “as part of a
collaboration aimed at developing a treatment for
cancer.” App. 93a. In particular, the court found, “Dr.
Freeman, Dr. Wood, and Dr. Honjo collaborated to
discover and characterize the PD-1/PD-L1 pathway
and to develop therapeutic applications based on
blocking this inhibitory interaction with antibodies
and enhancing the immune response for treatment of
cancer and other diseases.”
App. 79a.
After
reviewing the district court’s exhaustive findings, the
Federal Circuit agreed that “Drs. Freeman and
Wood’s work linking PD-1 to its ligand and
expression in tumors was a significant contribution
to each of these patents’ conception.” App. 17a.
B.

Factual Background

The patents claim methods of treating cancer
using the body’s own immune system to attack tumor
cells, a pioneering addition to the arsenal of cancer
treatments that is known as cancer immunotherapy.
App. 27a. Tumor cells use the interaction between
the PD-1 receptor on T cells and PD-L1 or PD-L2
ligands on tumor cells to evade attack by T cells. App.
26a. By blocking this signaling pathway, the claimed
treatment methods “aim to stimulate the immune
system to attack the tumor cells.” Id.; see App. 3a.
Dr. Honjo identified the PD-1 receptor in 1992.
But he did not fully understand PD-1’s biological
mechanism because he was unable to identify its
ligand, despite years of trying. App. 31a. He believed
that activation of PD-1 had an inhibitory effect, but

6
“he did not know that PD-L1 triggers this effect when
it binds to PD-1 or how strong the inhibitory signal is.”
App. 86a.
In 1998, still unable to identify a PD-1 ligand,
Dr. Honjo turned to Dr. Wood, a scientist at Genetics
Institute (“GI”). Dr. Wood hypothesized that PD-1’s
ligand would be a member of the “B7” family of
proteins, ligands that are expressed on certain white
blood cells and bind to T cells. But a year went by
and Dr. Wood’s experiments likewise failed to
identify the elusive PD-1 ligand. App. 33a-35a.
In October 1999, Dr. Honjo expanded his
collaborative research to include Gordon Freeman, a
cancer researcher at Dana-Farber Cancer Institute.
Dr. Freeman had spent the past fifteen years
studying B7 ligands. App. 35a. Dr. Freeman
suspected there might be additional B7 ligands with
immunological activity, and in 1998 he used his B7
expertise to devise a targeted search strategy. App.
35a-36a; see App. 4a-5a. He selected a specific
sequence containing 208 amino acids that forms part
of the binding portion of the B7-1 ligand and queried
the massive “BLAST” database to look for similar
molecules. App. 36a; see App. 27a-28a (BLAST
database contains millions of sequences, many of
them short fragments of genetic material whose
identity and function are unknown).
Dr. Freeman’s search identified 12 “extended
sequence tags” (ESTs) that resembled portions of the
B7-1 molecule, including one, denominated “292,”
that came from a human ovarian tumor. Id. Because
all the then-known B7 proteins were found only in
immune cells, not solid tumors, he decided to
investigate the 292 EST further, determining its full-

7
length sequence and testing it for immunological
properties. App. 35a-36a. (The 292 molecule was
later renamed PD-L1.)
As the district court’s
findings show, Dr. Freeman’s discovery of 292 was
the result of sophisticated scientific experimentation;
he did not simply “locate” PD-L1 in a public database,
as BMS disparagingly depicts his discovery.
After determining that 292 plays a role in
immune regulation, Dr. Freeman utilized an existing
collaboration with GI to further investigate 292’s
biological function, including the receptor to which it
bound. He explained to GI that 292 was a B7
molecule and suggested that its receptor would
resemble certain T cell receptors he identified. App.
37a.
When Dr. Wood learned that Dr. Freeman had
discovered a new B7 protein, Dr. Wood tested
whether PD-1 bound to it and found that it did. App.
38a. Dr. Wood shared the welcome news with Dr.
Honjo and informed him of Dr. Freeman’s role in the
discovery. Dr. Honjo expressed great excitement and
made plans to meet with them in Cambridge,
Massachusetts on October 25, 1999. App. 38a.
At this meeting Dr. Freeman shared the amino
acid sequence of PD-L1 with Dr. Honjo, and he and
Dr. Wood shared their unpublished experimental
data demonstrating that PD-L1’s interaction with
PD-1 inhibited the proliferation of T cells. Dr.
Freeman also disclosed that PD-L1 was derived from
a human ovarian tumor. App. 39a-42a. To the
scientists at the meeting, these discoveries were
revelatory—their mood was “jubilant.” C.A.J.A. 1126.
Dr. Honjo relied on the information he learned that
day in his ensuing research. App. 97a. None of this

8
information was available to the scientific
community until nearly twelve months later, when
the three scientists published some of their early
data.
Toward the end of 1999, Dr. Freeman
discovered a second ligand that binds to PD-1, PD-L2.
The interaction of PD-L2 with PD-1 similarly inhibits
the immune response, and PD-L2, like PD-L1, is
expressed on various tumor cells. App. 47a-48a. Dr.
Freeman shared this discovery with Dr. Honjo in
March 2000. Id. Treating a tumor that expresses PDL2 is a claim element in three of the six patents
obtained by Dr. Honjo, even though he did not
discover PD-L2 and he never conducted any
experiments involving PD-L2. Id.; App. 91a.
In November 1999, Drs. Freeman and Wood
filed a provisional patent application describing
research they conducted before beginning their threeway collaboration with Dr. Honjo. C.A.J.A. 34873640. The provisional described methods of
modulating the immune response either by
activating or blocking the PD-1/PD-L1 pathway and
reported that the PD-1/PD-L1 interaction was
inhibitory. App. 44a.2 The provisional did not
disclose Dr. Freeman’s discovery of PD-L2, Dr.
Freeman and Dr. Wood’s discoveries that monoclonal
antibodies could effectively block the PD-1/PD-L1
interaction, or Dr. Freeman’s discovery that PD-L1 is
highly expressed on human solid tumors, all of which
came later. The USPTO issued three patents based

The provisional also hypothesized that PD-L1 might
have a stimulatory effect if it bound to a second T cell
receptor other than PD-1.
2

9
on the provisional beginning in 2004; only upon their
issuance did the patents become prior art against the
Honjo patents, under 35 U.S.C. § 102(e). App. 45a.
By 2000, Dr. Freeman had hypothesized that
cancer cells expressing PD-L1 could use the
interaction between PD-L1 and PD-1 to inhibit the
proliferation of T cells and protect themselves from
immune attack. Blocking this interaction could
enhance the immune response and thereby treat
cancer.
To test his hypothesis, Dr. Freeman
undertook two important studies. First, his lab
created monoclonal antibodies against human PD-L1
and established that they could effectively block the
interaction between PD-1 and PD-L1 in human cells.
App. 48a. (Dr. Honjo, less focused on developing
human therapeutics, only studied the PD-1/PD-L1
interaction in mice).
Second, Dr. Freeman investigated PD-L1’s
pattern of expression in human cells through
immunohistochemistry (“IHC”) experiments that
exposed ex vivo human tissues to PD-L1 antibodies.
He showed that PD-L1 is highly expressed on a wide
range of solid tumors, confirming that tumors could
use the pathway to protect themselves from immune
attack. App. 46a-47a; see App. 6a. These results had
profound implications for cancer therapy. They were
shared at a high level with Dr. Honjo at a private
meeting in May 2000, App. 50a, and then in greater
detail at a collaboration meeting in September. App.
53a. The IHC results were not made public until
2003. App. 6a, 47a.
On September 8, 2000, the three collaborators
met to share their latest research on PD-1/PD-L1
cancer immunotherapy. Dr. Honjo reported the

10
results of an experiment indicating that mouse
melanoma tumors engineered to express PD-L1 grew
faster than tumors that did not express PD-L1. App.
52a-53a.3 The experiment confirmed, in an animal
model, Dr. Freeman’s earlier hypothesis that cancer
cells expressing PD-L1 could use the pathway to
protect against immune attack. As noted, Dr.
Freeman presented his IHC data showing that in
humans PD-L1 is highly expressed on solid tumors.
In addition, both Dr. Freeman and Dr. Wood reported
their data showing that monoclonal antibodies could
effectively block the PD-1/PD-L1 interaction. Id.
The results shared on September 8 quickly led
to conception of the claimed inventions by no later
than October. See App. 95a. Dr. Honjo testified that
in his mind conception was complete by October 27,
2000. App. 54a. Although he claimed that the results
of his lab’s mouse tumor experiments were what
persuaded him, the district court found that the
mouse experiments “only triggered conception
because Dr. Honjo knew from Dr. Freeman’s work
that, like the transfected tumors in [the mouse]

Contrary to the petition, Dr. Honjo’s lab did not
begin to run their mouse tumor experiments in “early
2000.” Pet. 12. In March 2000, Dr. Honjo’s lab
outlined a plan for future PD-1/PD-L1 experiments,
including mouse tumor experiments, but they were
not conducted until late summer and not reported
until September.
C.A.J.A. 6226-6230; see also
C.A.J.A. 4445. The Federal Circuit noted that the
Honjo lab conducted the mouse tumor experiments
only after Dr. Freeman had shown expression of PDL1 in human tumors. App. 12a-13a.
3

11
experiments, human tumors express PD-L1.” App.
95a-96a.
On October 2, 2000, shortly before the asserted
date of conception, the three scientists and their
colleagues published a paper in Journal of
Experimental Medicine (“Freeman 2000”). C.A.J.A.
5796-5803. It reported research they conducted in
1999, including the discovery of PD-L1 as a PD-1
ligand and data from in vitro experiments showing
that the PD-1/PD-L1 interaction inhibits the immune
response. App. 45a-46a. The Freeman 2000 paper
included a passage, written by Dr. Freeman,
suggesting for the first time publicly that “tumors
may use PD-L1 to inhibit the antitumor immune
response.” Id.; C.A.J.A. 2185-86, 5802. The paper did
not disclose Dr. Freeman’s and Dr. Wood’s data
showing that the pathway could be blocked using
monoclonal antibodies, Dr. Freeman’s discovery of
PD-L2, or Dr. Freeman’s data showing that PD-L1 is
highly expressed on human solid tumors.
Dr. Honjo and Ono Pharmaceutical filed a
provisional Japanese patent application on July 3,
2002 and a utility application a year later, leading to
the six patents-in-suit. Each patent names as
inventors only Dr. Honjo, two of his colleagues at
Kyoto University, and a scientist at Ono.
Each patent recites a method of treating
cancer or a tumor, decreasing tumor growth, and/or
suppressing metastasis of tumor cells by
administering a PD-1 or PD-L1 antibody. C.A.J.A.
145, 180, 213, 251, 289, 331-332. Five of the patents
contain claim limitations requiring that the tumors
express PD-L1 or PD-L2, and four of the patents limit
the treatment method to particular types of tumors.

12
Nearly all of the recited tumors are ones Dr. Freeman
identified to Dr. Honjo in 2000 as tumors that highly
express PD-L1 or PD-L2. App. 102a-103a.
Dr. Honjo and Ono exclusively licensed their
rights in the patents to global pharmaceutical giant
Bristol-Myers Squibb. BMS obtained regulatory
approval for its PD-1 antibody product Opdivo® in
2014 and has earned “billions of dollars in profits.”
App. 57a, 109a. In 2014 BMS sued its main
competitor Merck for patent infringement by Merck’s
PD-1 antibody Keytruda®. In 2017, during the
pendency of this litigation, BMS granted Merck a
patent license in exchange for a $625 million
licensing fee plus royalties. ECF No. 364 (Tr. 62).
C.

The District Court Proceeding

Dana-Farber brought suit to correct
inventorship in 2015 “to confirm its ability to grant
non-exclusive licenses to companies interested in
developing cancer immunotherapies directed to the
PD-1/PD-L1 pathway, in order to ensure broad
patient access to the cancer treatments claimed in
the [p]atents.” ECF No. 1, ¶ 56.
At trial, BMS raised three principal defenses,
each now abandoned. First, it claimed that Dr.
Freeman and Dr. Wood’s contributions to conception
were uncorroborated. The district court disagreed,
pointing to the “flood of corroborating evidence”
supporting joint inventorship. App. 72a-73a. The
court credited Drs. Freeman and Wood with
testifying truthfully about their experiments and
their communications with Dr. Honjo. App. 72a-76a.
The court also credited the scientific testimony of
Dana-Farber’s expert immunologist, who explained

13
that Dr. Freeman and Dr. Wood’s contributions were
critically important to the inventive process that led
to conception of the claimed inventions. App. 61a.
Second, BMS denied that Drs. Freeman and
Wood collaborated with Dr. Honjo on methods of
treating cancer, claiming that their collaboration was
limited to
identifying
PD-1’s ligand and
characterizing its function. ECF No. 375 at 1-2. The
centerpiece of BMS’s defense was Dr. Honjo’s
testimony that the purpose of the collaboration was
only to “find the ligand,” ECF. No. 362 (Tr. 185), and
his denial that he had collaborated with Drs.
Freeman and Wood on cancer immunology. Id. (Tr.
111-12). This defense fell flat when the evidence
revealed that in his Nobel lecture two months before
trial, Dr. Honjo credited Dr. Freeman as a “major
collaborator” on “Cancer immunotherapy by PD-1
blockade,” the very subject matter of the claimed
inventions. C.A.J.A. 7396-7397 (emphasis added);
App. 60a, 77a; see App. 8a.4 The district court did not
credit Dr. Honjo’s self-serving denial, finding that the
three scientists collaborated “to develop therapeutic
applications based on blocking this inhibitory
interaction with antibodies and enhancing the
immune response for treatment of cancer and other
diseases.” App. 79a; see App. 77a (emphasis added).

Dr. Honjo listed Dr. Freeman first among his four
“major collaborators.” The second, Dr. Minato, was a
named inventor. The others were clinicians whose
involvement with Dr. Honjo came long after the
research that led to the patents. C.A.J.A. 7396-7397;
C.A.J.A. 2024-2025.
4

14
BMS’s third defense was that Dr. Freeman’s
discovery of the PD-L1 and PD-L2 ligands amounted
to nothing more than explaining the current state of
the art. BMS claimed that because the partial or fulllength sequences of the two molecules appeared in
public databases, Dr. Freeman’s contributions did
not meet the Federal Circuit’s test for significance.
The district court rejected this defense as well. As to
PD-L1, the court found that its identity and function
as a PD-1 ligand were unknown at the time Dr.
Freeman shared his discovery with Dr. Honjo, and
hence it was not a “well-known concept[]” or the
“current state of the art.” App. 83a. The court also
noted Dr. Honjo’s inability to find the ligand over a
seven-year period of investigation, demonstrating
that Dr. Freeman’s discovery “required more than
‘the basic exercise of ordinary skill in the art.’” App.
84a. As to PD-L2, the court found that while its
sequence appeared in a public database, its identity
as a PD-1 ligand and its biological function were
unknown until Drs. Freeman and Wood made these
discoveries and shared them with Dr. Honjo. App.
91a.
After reviewing the patents claim-by-claim,
the district court found that “conception of the
inventions in the Honjo patents was the result of the
collaboration of all three scientists.” App. 93a. Dr.
Freeman and Dr. Wood “made significant
contributions to conception” of the claimed inventions
“through their discovery of PD-L1 and PD-L2, their
discoveries of blocking antibodies, Dr. Wood’s
discovery of the inhibitory interaction between PD-1
and PD-L1, and Dr. Freeman’s discovery of the
expression of PD-L1 on tumor cells.” App. 103a-104a;
see App. 14a-17a.
These contributions were
“fundamental and essential building blocks for

15
conception” of the claimed cancer treatment methods.
App. 98a, 95a.5
D.

The Federal Circuit Appeal

On appeal, BMS did not, and could not,
challenge the district court’s findings of fact. Instead,
BMS argued that the judgment should be reversed on
the ground that it was flawed by “conceptual errors.”
BMS Br. 27. This contention turned on questions of
fact, but BMS tried to present them as legal issues by
urging categorical rules to disqualify Dr. Freeman’s
and Dr. Wood’s contributions as a matter of law.
The
Federal
Circuit
applied
settled
inventorship law to dispose of BMS’s proposed
categorical rules. BMS’s first argument was that Dr.
Freeman and Dr. Wood’s contributions were “too far
removed” from treating cancer because they did not
participate in the Honjo lab’s mouse tumor
experiments in late 2000. App. 10a, 12a. Citing joint
inventorship cases dating to the 1990s, the court
noted that BMS was asking it to adopt a new and
“unnecessarily heightened inventorship standard.”
App. 11a. The court explained that “the statute and
our case law make clear that joint inventors need not
contribute to all aspects of a conception,” and that “in
vivo verification” is not required for conception. App.
12a. The court added that in any case Dr. Honjo’s

Although the district court was unable to determine
which of the three scientists was first to propose the
idea of blocking the pathway to treat cancer, it found
that they were simultaneously focused on this idea in
early 2000 and “working toward a shared goal.” App.
92a-93a.
5

16
mouse tumor experiments were performed only “after
Dr. Freeman had shown expression of PD-L1 in
human tumors” and thus “as a factual matter, PDL1’s potential utility in treating human cancers was
developed jointly with Dr. Freeman.” App. 12a-13a.
BMS’s second argument was that certain of
Dr. Freeman and Dr. Wood’s contributions, though
not in the prior art when shared with Dr. Honjo,
became prior art by the time Dr. Honjo filed his
patent application and on that ground should be
disqualified as a matter of law. App. 10a. Citing the
disclosures in the 1999 provisional and the coauthored Freeman 2000 paper, BMS argued that if a
patent “issues over” a prior art reference disclosing
alleged contributions, they cannot be considered in
determining joint inventorship.
The Federal Circuit noted that BMS was
urging the Federal Circuit, contrary to settled law,
“to adopt a legal rule that once a contribution is made
public, it “no longer qualifies as a significant
contribution to conception.” App. 10a. The court
declined to adopt BMS’s proposed bright-line rule
and made clear that whether contributions are
significant for joint inventorship purposes is casespecific and fact-bound. Thus, it held, “publication of
a portion of a complex invention does not necessarily
defeat joint inventorship of that invention, and it does
not here.” App. 14a (emphasis added).
E.

BMS’s Petition for Rehearing En Banc

After the Federal Circuit issued its unanimous
decision, BMS petitioned for panel rehearing and
rehearing en banc. Its request for panel rehearing
was based on the panel’s alleged “factual errors,”

17
repeating its now-abandoned contention that Dr.
Freeman and Dr. Wood’s contributions to conception
should have been found to be insignificant because
they were “too far removed” from the Honjo’s lab’s in
vivo mouse studies. Its request for en banc rehearing
previewed its petition to this Court, asserting that the
panel’s decision conflicted with the same Federal
Circuit precedents that BMS now cites in its petition.
The Federal Circuit unanimously denied both
panel and en banc rehearing. App. 19a-20a.
REASONS FOR DENYING THE PETITION
BMS’s petition presents no issues warranting
review. The Federal Circuit held that the district
court committed no error in its factual determination
that Dr. Freeman and Dr. Wood, individually and
together, made significant contributions to
conception of the claimed subject matter. BMS does
not and cannot challenge this determination as a
factual matter.
Contrary to BMS’s contrived
arguments, the Federal Circuit’s decision did not,
and did not purport to, make new law or impose any
bright-line rule for assessing inventorship evidence.
A fact-bound determination of joint inventorship
presents no occasion for this Court to revisit settled
law, on which patent owners and inventors have
relied for decades.
A.

The Federal Circuit’s Decision Did Not
Deviate from Precedent or Create a
“Bright-Line” Rule Precluding a District
Court’s
Consideration
of
Relevant
Inventorship Evidence

BMS’s petition should be denied, first, because
the legal issue it seeks to raise is not presented at all.

18
BMS contends that the Federal Circuit adopted a
“bright line” rule that precludes a district court from
considering evidence that an alleged inventive
contribution was published prior to the date of
conception in determining whether that contribution
was significant to conception. But the district court
excluded no such evidence and the Federal Circuit
adopted no such rule. On the contrary, the Federal
Circuit simply rejected BMS’s now-abandoned
argument that if the ideas contributed enter the prior
art before the date of conception, they are
disqualified, as a matter of law, from consideration in
the inventorship determination.
Applying settled precedent and evaluating the
district court’s findings under the clearly erroneous
standard of review, the Federal Circuit found that
“publication of a portion of a complex invention does
not necessarily defeat joint inventorship of that
invention, and it does not here.” App. 14a (emphasis
added). This articulation of the legal standard, which
BMS tellingly fails even to acknowledge, and its
application to the facts of this case, belie any
preclusive, bright-line rule. The Federal Circuit left
joint-inventorship law where it found it, and where
BMS concedes (for purposes of its petition) it should
be: later publication may or may not bear on the
significance of a particular contribution, depending
on the facts and circumstances that led to conception
in a particular case.
1.

The Federal Circuit’s
Applied Settled Law

Decision

The Federal Circuit’s affirmance of the district
court’s determination that the contributions of Drs.
Freeman
and
Wood
were
significant—

19
notwithstanding that some of their 1999
contributions either were published, or were not
published but technically constituted prior art—
properly applied settled inventorship law that BMS
does not challenge.
a.
“[A] joint invention is simply the
product of a collaboration between two or more
persons working together to solve the problem
addressed.” Fina Oil & Chem. Co. v. Ewen, 123 F.3d
1466, 1473 (Fed. Cir. 1997); App. 11a. To encourage
“modern team research,” Congress amended the
patent statute in 1984 to provide that joint inventors
need not work in physical proximity or at the same
time, or make the same type or amount of
contribution. 35 U.S.C. 116(a); 130 Cong. Rec. 28,06971 (1984) (statement of Rep. Kastenmeier). Joint
inventors thus may contribute at different stages of
the inventive process. See Ethicon, Inc. v. United
States Surgical Corp., 135 F.3d 1456, 1460 (Fed. Cir.
1998) (each inventor “needs to perform only a part of
the task which produces the invention”); Vanderbilt
Univ. v. ICOS Corp., 601 F.3d 1297, 1303 (Fed. Cir.
2010) (“each contributor need not have their own
contemporaneous picture of the final claimed
invention in order to qualify as joint inventors”); App.
12a.
There is no “explicit lower limit on the
quantum or quality of inventive contribution
required for a person to qualify as a joint inventor.”
Fina Oil, 123 F.3d at 1473. All that is required is that
each joint inventor “make a contribution to the
conception of the claimed invention that is not
insignificant in quality, when that contribution is
measured against the dimension of the full
invention.” Id.; see CODA Dev. s.r.o. v. Goodyear Tire

20
& Rubber Co., 916 F.3d 1350, 1359 (Fed. Cir. 2019)
(joint inventor must make “a more-than-insignificant
contribution to the conception of at least one claim”).
A contribution is not necessarily insignificant
merely because it is made public prior to conception.
In Pannu v. Iolab Corp., 155 F.3d 1344 (Fed. Cir.
1998), the omitted inventor (Pannu) had disclosed his
contributions publicly more than a year before
collaborating with the named inventor. The Federal
Circuit reversed the district court’s grant of JMOL
dismissing Pannu’s correction-of-inventorship claim,
holding that despite his prior art disclosures, a
factfinder could find Pannu to be a co-inventor
because he was “contributing his ideas . . . to a total
inventive concept.” 155 F.3d at 1351. To be sure, an
alleged contribution that amounts merely to
explaining “well-known concepts and/or the current
state of the art” does not make one a joint inventor.
Id. at 1351; see Hess v. Advanced Cardiovascular
Sys., Inc., 106 F.3d 976, 981 (Fed. Cir. 1997); App.
13a-14a. But under the standard articulated more
than twenty years ago in Pannu, the mere fact that
some aspect of a co-inventor’s overall contribution
enters the prior art does not mean that that the
contribution necessarily should be disregarded.
The Federal Circuit reiterated this principle in
2017, noting the absence of any precedent in which
the court had “barred co-inventorship, as a matter of
law, just because the contribution later appeared in
the public domain, where the ideas contributed were
not contemporaneously available to an ordinary
skilled artisan and were otherwise significant in
producing the inventive conception at the time it was
completed.” CardiAQ Valve Techs., Inc. v. Neovasc
Inc., 708 F. App’x 654, 660 (Fed. Cir. 2017)

21
(unpublished) (“CardiAQ”). As the court explained,
“[w]e have been presented no sound reason for
adopting such a legal bar now.” Id.6
Pannu and CardiAQ illustrate the settled law
that, for a contribution to be significant, the ideas
contributed must not have been contemporaneously
available to an ordinary skilled artisan at the time of
the contribution. But this is not the same as asking
whether an invention is novel and nonobvious over a
contribution that later entered the prior art, the test
BMS proposed.
App. 13a. The test for joint
inventorship does not “depend on” the novelty and
nonobvious of the invention over a particular
researcher’s contribution; rather, it depends on
whether the researcher’s ideas made a significant
contribution to the process that led to conception of
the claimed invention. App. 13a.
b.
In its decision, the Federal Circuit
applied settled law and charted no new territory. It
reaffirmed the principle that to be a joint inventor
one must make a not insignificant contribution to the
claimed invention and do more than merely inform
another about the current state of the art, citing both
Pannu and Hess. App. 11a, 13a. BMS did not
challenge the district court’s finding, affirmed by the
Federal Circuit, that when Drs. Freeman and Wood
shared their discoveries with Dr. Honjo in October
1999—twelve months before publication of their coauthored paper—they were sharing “confidential,

CardiAQ, like this case, involved § 102(e) prior art
that was not publicly available at the time of the
omitted inventor’s contribution and became prior art
only retroactively. CardiAQ, 708 F. App’x at 659.
6

22
unpublished experimental results.” App. 87a.
Because the PD-L1 discoveries Drs. Freeman and
Wood shared with Dr. Honjo in 1999 contributed
significantly to the inventive process and were not
“contemporaneously available to an ordinary skilled
artisan,” there was no bar to co-inventorship “just
because the contribution later appeared in the public
domain.” CardiAQ, 708 F. App’x at 660.
The Federal Circuit applied this principle in
its decision, stating that the preclusive rule BMS
sought “would ignore the realities of collaboration,
especially that collaboration generally spans a period
of time and may involve multiple contributions.”
App. 13a. Here, “the collaborators had worked
together for around one year prior to the disclosure,
and the disclosure occurred just a few weeks prior to
conception.” App. 14a. Echoing its comment in
CardiAQ, the court stated, “there is no principled
reason to discount genuine contributions made by
collaborators” to conception over time just “because
portions of that work were published prior to
conception for the benefit of the public.” The court
cautioned that earlier publication may, by putting a
collaborator’s disclosures into the prior art, create “a
potential hazard to patentability.” Id. Despite that,
the court held, “publication of a portion of a complex
invention does not necessarily defeat joint
inventorship of that invention, and it does not here.”
Id.
2.

The Petition Mischaracterizes the
Federal Circuit’s Opinion

In seeking review, BMS does not challenge
either the legal test the Federal Circuit applied or its
application in this case. Instead it attacks a straw

23
man—a new categorical rule of inventorship the
Federal Circuit never articulated. BMS asserts that
“the Federal Circuit adopted a bright-line rule” that
“alleged contributions that were already in the prior
art” can never be “probative of whether those alleged
contributions were significant to conception.” Pet. i.
This mischaracterizes the decision.
When the opinion is read in light of the district
court’s findings of fact and the case law discussed
above, it is apparent that the decision made no new
law and announced no bright-line rule dictating how
a district court should evaluate evidence of
inventorship contributions.
BMS criticizes the
court’s statement that joint inventorship does not
“depend on” whether the claimed invention is “novel
or non-obvious” over a particular researcher’s
contribution. App. 13a. But under settled law, that
is not the test for joint inventorship, and the court
rightly rejected BMS’s attempt to change the law.
The petition seizes on the court’s statement
that Dr. Freeman and Dr. Wood’s 1999 provisional
was not “probative” of whether it was the
“collaborative research efforts” of all three scientists
that “led to the inventions claimed here.” App. 13a.
BMS mischaracterizes this statement as intending to
promulgate a bright-line rule that a patent’s issuance
over prior art disclosing a scientist’s contributions
can never be relevant to joint inventorship. But the
court’s statement was made in the context of the
evidence in this case: the 1999 provisional disclosing
only the earliest of the many discoveries Drs.
Freeman and Wood shared with Dr. Honjo; the
collaborative research efforts of the three scientists
over a twelve-month period; the specific “inventions
claimed here”; and the particular contributions each

24
of the scientists made to conception of those
inventions. Tellingly, BMS’s so-called “clean legal
issue” cannot be stated without reciting these casespecific facts. Pet. 29.
The petition ignores the Federal Circuit’s
actual holding in the case, set out in the final
sentence of Part A of the opinion. In holding that
publication of a portion of the claimed invention did
not “necessarily” defeat joint inventorship and it did
not “here,” the Federal Circuit rested its decision on
the district court’s unchallenged findings of fact, not
on the application of a categorical rule. BMS has not
presented a “clean” or “bright-line” legal issue for this
Court to review.
B.

The Decision Does Not Conflict with this
Court’s Precedent

BMS reaches back to 1853 to find a Supreme
Court case that allegedly conflicts with the Federal
Circuit’s decision. But the case on which it relies,
O’Reilly v. Morse, 56 U.S. 62 (15 How.) (1853),
concerned the validity of Morse’s patent, not a claim
of joint inventorship. One of the accused infringer’s
defenses was that Morse was not a “true inventor” of
the telegraph, because in the course of his research he
received advice from “men of science.” The Court
disagreed, pointing out that it made no difference
whether he derived information “from books” or from
conversations with men “skilled in the science.” 56
U.S. at 111. Because the information in books was
publicly available, the “men of science” with whom
Morse conversed did nothing more than what the
Federal Circuit described in Pannu as explaining
“well-known concepts and/or the current state of the

25
art,” not enough to make one a joint inventor. 155
F.3d at 1351; see App. 11a.
BMS’s contention that under the Federal
Circuit’s decision, Morse would have had to share
credit for his invention with the “men of science” with
whom he consulted distorts the decision, which says
the opposite. BMS does not challenge the district
court’s findings that Drs. Freeman and Wood did
much more than explain well-known concepts or the
current state of the art to Dr. Honjo. App. 83a-84a,
87a.
The petition cites KSR International Co. v.
Teleflex Inc., 550 U.S. 398 (2007), and Bilski v.
Kappos, 561 U.S. 593 (2010), but they have no
bearing on this case except to underscore the absence
of a question appropriate for review. In KSR, the
Court granted certiorari to review the Federal
Circuit’s long-standing and consistently articulated
“teaching-suggestion-motivation
test”
for
determining obviousness of a claimed invention. This
was the epitome of a bright-line rule, created by the
Federal Circuit’s predecessor court to resolve
obviousness questions with “uniformity and
consistency.” KSR, 550 U.S. at 407.
In Bilski, the Court granted certiorari to
review
the
Federal
Circuit’s
“machine-ortransformation test” for determining patent
eligibility of a process under § 101. In re Bilski, 545
F.3d 943, 949, 956 (Fed. Cir. 2008). When the case
came to this Court, there was no dispute that the
question presented was a bright-line rule.
In this case, by contrast, the Federal Circuit
did not purport to create a bright-line rule. BMS’s

26
repeating that phrase twenty-eight times in the
space of a twenty-nine page petition does not make it
so.
C.

The Decision Does Not Conflict with
Federal Circuit Precedent, Fourth Circuit
Precedent, or “Black Letter Patent Law”

BMS identifies no inconsistency between the
decision below and any other decision of the Federal
Circuit or other court of appeals. The inventorship
cases BMS cites have nothing to do with the facts of
this case.
They involve situations where the
contribution of “information in the prior art,” Pet. 26,
was deemed insignificant because the information
was already in the prior art at the time it was
contributed. That is, it was “contemporaneously
available to an ordinary skilled artisan.”
See
CardiAQ, 708 F. App’x at 660.
a.
The petition argues the Federal Circuit’s
decision creates a split in the circuits over “basic
principles of patent law.” Pet. 19. Inventorship is an
area of substantive law assigned to the exclusive
jurisdiction of the Federal Circuit. BMS’s implausible
claim rests on a 19-year-old nonprecedential Fourth
Circuit decision. See Levin v. Septodont, Inc., 34 F.
App’x 65 (4th Cir. 2002).
There is no conflict. Levin is just another in the
line of cases denying joint inventorship where the
putative inventor’s idea was known in the prior art at
the time he contributed it. See 34 F. App’x at 73-74
(mouthwash ingredients suggested by Levin were
well-known in the literature; he “did no more than
explain the existing state of the art”). In determining
that the plaintiff’s alleged contributions did not “help[]

27
to make the invention patentable,” the court explicitly
relied on the same Pannu standard discussed above.
Id. at 70-74. The alleged contributions did not help to
make the invention patentable for the simple reason
that Levin’s ideas were already known publicly at the
time he shared them.
b.
Nor is there any conflict with Federal
Circuit precedent. The decisions BMS cites, like the
Fourth Circuit’s Levin decision, recite or apply the
Pannu standard, holding that merely informing
another about the state of the art does not make one
a joint inventor.7 The petition’s contention that the
decision conflicts with Federal Circuit precedent
misleadingly implies that the PD-L1 discoveries Drs.
Freeman and Wood shared with Dr. Honjo in October
1999 were already in the prior art at that time. But
BMS did not challenge the district court’s factual

See, e.g., Eli Lilly & Co. v. Aradigm Corp., 376 F.3d
1352, 1362 (Fed. Cir. 2004) (if chemical properties of
claimed compound were already in the public domain,
alleged contribution would not give rise to joint
inventorship); Garrett Corp. v. United States, 422 F.2d
874, 879-81 (Ct. Cl. 1970) (putative inventor’s
contribution of a water ballast pocket feature was
already disclosed in nine-year-old prior art); Nartron
Corp. v. Schukra U.S.A., Inc., 558 F.3d 1352, 135758 (Fed. Cir. 2009) (putative inventor’s alleged
contribution was admittedly known in the art at the
time). Maatuk v. Emerson Elec., Inc., 781 F. App’x
1002 (Fed. Cir. 2019) (per curiam) (nonprecedential),
affirming Maatuk v. Emerson Elec., Inc., 2019 U.S.
Dist. LEXIS 17403 at *29 (N.D. Ohio Feb. 4, 2019)
(technology disclosed by putative inventor “was
already known in the prior art”).
7

28
determination that Dr. Honjo had the benefit of their
“confidential, unpublished experimental results,”
App. 87a, for some twelve months before the three
scientists published portions of their 1999 research in
October 2000.
c.
The decision likewise does not conflict
with Board of Education ex rel. Board of Trustees of
Florida State University. v. American Bioscience, Inc.,
333 F.3d 1330 (Fed. Cir. 2003), where the information
allegedly contributed similarly was in the prior art at
the time of the alleged contribution.8
American Bioscience underscores the weakness
of BMS’s arguments for additional reasons. While
initially brought as a correction of inventorship case,
American Bioscience ultimately turned on which of
two competing groups of scientists were the “true
inventors”—i.e., first to invent—three chemical
compounds claimed in American Bioscience’s (ABI’s)
patent. See Vanderbilt University v. ICOS Corp., 601
F.3d 1297, 1307 (Fed. Cir. 2010) (explaining that
American Bioscience was a priority contest, not a joint
inventorship case). The patent’s prosecution history
showed that ABI originally claimed a genus of
chemical compounds, but it later substituted narrow
claims limited to three specific compounds in order to
overcome prior art of plaintiff Florida State
University (FSU) that disclosed compounds invented
by FSU’s scientists. 333 F.3d at 1335; Bd. of Educ. ex
rel. Bd. of Trs. of Fla. State Univ. v. Am. Bioscience,
BMS’s suggestion of a conflict with American
Bioscience is implausible: Judge Lourie, the author of
the decision in this case, also authored American
Bioscience.
8

29
Inc., 2001 U.S. Dist. LEXIS 19480 at *32 (N.D. Fla.
Oct. 31, 2001). The Federal Circuit determined that
the FSU scientists were not co-inventors, because
there was no evidence they communicated with ABI
about the three specifically-claimed compounds. Only
after so ruling did the court suggest that issuance of
ABI’s patent over FSU’s prior art provided added
“support” for—not that it required—finding that the
claimed compounds were “not the invention of the
FSU scientists.” Id. at 1340.
The decision in American Bioscience turned on
the disputed patent’s prosecution history and
testimony from the prosecuting attorney explaining
it. Here, by contrast, BMS did not offer the patents’
prosecution histories into evidence.
The record
contains no evidence that the applicants narrowed
their claims in such a way as to reduce the significance
of any of Dr. Freeman and Wood’s contributions, or
that the examiner viewed any of the provisional’s
disclosures as bearing on the “novelty and
nonobviousness” of the allowed claims. As a result, the
factual premise for BMS’s flawed argument—that the
issuance of the Honjo patents necessarily diminished
the significance of contributions disclosed in the
provisional—lacks an evidentiary basis.9

The petition cites a U.K. opinion regarding the
validity of a European counterpart patent. But a
foreign judge’s analysis of a different patent cannot
serve as a proxy for the U.S. prosecution histories that
BMS failed to put into evidence. Moreover, in finding
the U.K. patent nonobvious, the judge cited the
scientific debate, e.g., C.A.J.A. 5802, over whether
PD-L1 also bound to a stimulatory receptor. This led
9

30
D.

The Federal Circuit Determined that Drs.
Freeman and Wood Made Significant
Contributions to Conception of the
Claimed Inventions that Were Not
Disclosed in Prior Art

BMS’s legal theory would not lead to reversal
of the judgment, a further reason to deny review. The
district court found, and the Federal Circuit agreed,
that Dr. Freeman and Dr. Wood made significant
contributions to each patent’s conception that were
not disclosed in either the 1999 provisional or the
Freeman 2000 paper. Among these were their joint
discovery that PD-1 and PD-L1 monoclonal
antibodies can block the pathway’s inhibitory signal
and Dr. Freeman’s discovery that human tumors
highly express PD-L1. App. 94a-103a; App. 14a-17a.
BMS does not contend, nor could it, that any of these
discoveries was in the prior art as of the filing of Dr.
Honjo’s patent application. See App. 47a, 87a. As a

him to conclude that, as of the priority date of the
patent, the idea of blocking PD-1 to treat a tumor was
nonobvious because it lacked “a fair expectation of
success.” See Merck Sharp & Dohme Ltd. v. Ono
Pharmaceutical Co. Ltd., [2015] EWHC 2973 (Pat), ¶
243(v). That conclusion, based on assessment of the
prior art as a whole, does not diminish in any way the
importance of Dr. Freeman and Dr. Wood’s discovery
of PD-L1 and the PD-1/PD-L1 inhibitory pathway in
leading to conception of the patented inventions. The
U.K opinion—which BMS did not offer as evidence or
even cite to the district court—does not support its
argument that the district court committed legal
error by failing to find that “the invention lay
elsewhere.” Pet. 17.

31
consequence, this case does not present the question
whether one can be a joint inventor if all of his or her
contributions have entered the public domain by the
time a patent application is filed.
BMS is flatly wrong in asserting that the
district court or Federal Circuit found that no
contributions of Drs. Freeman and Wood other than
their discovery of PD-L1 and the PD-1/PD-L1
pathway were significant. Pet. 28-29. The Federal
Circuit described Dr. Freeman’s discovery of PD-L1
expression by human tumors as a “significant
building block[] upon which the ‘474 patent is built,”
App. 16a, and held that it represented a “significant
contribution to each of [the] patents’ conception.” App.
17a (emphasis added); see App. 95a-96a, 99a-104a.
BMS selectively quotes the district court’s statement
questioning whether a contribution to a dependent
claim “by itself” would support joint inventorship.
App. 103a. Under settled law, it would. See Eli Lilly,
376 F.3d at 1362 (contribution to sole limitation
added in dependent claim 6 would suffice for coinventorship). The district court rightly viewed this
question as academic, having found that Dr.
Freeman’s PD-L1 tumor expression discovery
contributed significantly to the conception of
independent claims as well. App. 101a, fn. 18.
E.

The Decision Will Not Trigger a “Flood of
Litigation,” “Chill Collaboration,” or
“Deliver Windfalls”

BMS’s dire predictions as to the consequences
of the Federal Circuit’s decision lack any support by
amici or otherwise. As explained above, the Federal
Circuit held, more than two decades ago in Pannu,
that a researcher’s public disclosure of his

32
contributions does not automatically disqualify him
as a joint inventor, even though the patent issued over
his prior art disclosures. BMS identifies no “flood” of
inventorship litigation that followed that decision,
Pet. 27, and it has no basis to claim that this decision
applying the same principle will produce a different
result.
Overall, inventorship litigation is rare. In their
appellate briefs, the parties identified a total of
twenty-nine reported inventorship cases since 1990,
including this one, approximately one per year. This
paucity of cases suggests that inventorship law is not
a burning issue for inventors, companies,
universities, or practitioners. Notably, although the
district court’s decision was issued more than two
years ago and the Federal Circuit’s decision nearly
one year ago, BMS fails to identify any subsequent
inventorship case allegedly prompted by this case. In
the only two reported decisions citing to the Federal
Circuit’s inventorship discussion in this case, the
courts cited it merely for the principle that informing
another about the state of the prior art is not enough
to make one a joint inventor. Astellas Inst. for
Regenerative Med. v. ImStem Biotechnology, Inc.,
2021 U.S. Dist. LEXIS 21900 at *61 (D. Mass. Feb. 5,
2021); Plate, LLC v. Elite Tactical Sys., LLC, 2020
U.S. Dist. LEXIS 159083 at *40-41 (E.D. Tenn. Sept.
1, 2020).
Nor is there any reason to accept BMS’s
speculation that the Federal Circuit’s decision will
discourage scientists from participating in research
collaborations.
In this case, Dr. Honjo began
collaborating because he needed help. App. 16a. He
continued to collaborate because it gave him access to
Dr. Freeman and Dr. Wood’s “confidential,

33
unpublished experimental results,” App. 87a, on
which “Dr. Honjo relied in his ensuing research” over
a twelve-month period when the rest of the scientific
community had no knowledge of their groundbreaking
discoveries. App. 97a-98a. By collaborating with
them, Dr. Honjo obtained a valuable head-start over
other researchers, a powerful incentive for
collaborative research.
The district court found that failing to credit a
researcher’s experiments such as those of Dr.
Freeman and Dr. Wood would “disincentivize
scientists from participating in this type of innovative
research collaboration.” App. 84a-85a. As the
Federal Circuit observed, BMS’s proposed rule
disqualifying contributions because they later become
public “would ignore the realities of collaboration,”
which “generally spans a period of time and may
involve multiple contributions.” App. 13a. BMS’s
argument has it backwards. It is reversal of the
decision in this case that would discourage future
research collaborations and impede the progress of
science.
BMS’s petition asserts that the Federal
Circuit’s affirmance of the judgment correcting
inventorship “will deliver a windfall” to individuals
like Dr. Freeman, because it gives him (and his
assignee Dana-Farber) the full right to license the
patents to third parties. Pet. 23-24. In truth, it is
BMS that enjoyed a windfall, by refusing to correct
inventorship and by exploiting its purported exclusive
rights in the patents to negotiate lucrative licensing
deals for itself.
As the district court’s findings reflect, Dr.
Freeman dedicated a year-and-a-half of his

34
professional life as a cancer researcher, plus
substantial Dana-Farber laboratory resources, to his
collaboration with Dr. Honjo. He openly shared his
experimental data, expertise, and insights, which the
court found to be important contributions to the
inventive process that led to conception. The court’s
order correcting inventorship simply allows DanaFarber to offer licenses to third party manufacturers
in the few years that remain before the patents
expire, helping to ensure broad patient access to the
patented cancer treatments. Upholding the judgment
of joint inventorship hardly amounts to delivering a
windfall to an undeserving “purported co-inventor[]”
claiming patent rights that “turn out to be valuable.”
Pet. 23.
CONCLUSION
The petition should be denied.
sRespectfully submitted,
DONALD R. WARE,
Counsel of Record
Barbara A. Fiacco
Sarah S. Burg
Michael B. Hoven
Foley Hoag LLP
155 Seaport Boulevard
Boston, MA 02210
617-832-1000
dware@foleyhoag.com
April 20, 2021

